                U.S. Department of Agriculture

                   Office of Inspector General
                               Western Region




       Audit Report

  Food and Nutrition Service
       Western Region
Summer Food Service Program
    California and Nevada




                      Report No. 27099-34-SF
                                 August 2007
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                        Western Region - Audit
                                     75 Hawthorne Street, Suite 200
                                    San Francisco, California 94105
                                 TEL: 415-744-2851 FAX: 415-744-2871




REPLY TO
ATTN OF:       27099-34-SF

TO:           Allen Ng
              Regional Administrator
              Food and Nutrition Service
              Western Region

FROM:         Frederick San Buenaventura /s/
              Regional Inspector General
              Western Region

SUBJECT:      Summer Food Service Program
              California and Nevada


This report presents the result of our audit of the Food and Nutrition Service’s (FNS) Summer
Food Service Program. Your August 8, 2007, written response to the draft report is included as
exhibit H. Excerpts from your response and the Office of Inspector General’s position have been
incorporated into the relevant sections of the audit report.

Based on FNS’ written response, we accept your management decisions on Recommendations 1,
2, 3, 4, 5, 8, and 12. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. In order to reach management
decision on Recommendations 6, 7, 9, 10, and 11, please refer to the OIG Position sections of the
audit report. Note that Departmental Regulation 1720-1 requires that a management decision be
reached on each finding and recommendation within 6 months of report issuance, and final
action be taken within 1 year of each management decision to preclude being listed in the
Department’s Performance and Accountability Report.

We appreciate the cooperation and assistance given by your staff during the audit.
Executive Summary
Food and Nutrition Service – Summer Food Service Program – California and Nevada
Audit Report No. 27099-34-SF


Results in Brief    The Summer Food Service Program improves the nutrition of low-income
                    populations of children by providing meals during periods that school
                    nutrition programs are not operating. Under the program, participating
                    sponsors are reimbursed for meals they provide to sites that serve the meals
                    to children free of charge. We reviewed four private nonprofit sponsors in
                    California and Nevada participating during program year 2006. Our
                    objectives were to determine if the sponsors complied with program
                    regulations and policies, and to evaluate the adequacy of the State agencies’
                    administration of the program.

                    We noted concerns with all three sponsors we reviewed in California. None
                    of the three sponsors fully complied with requirements of the State health
                    and safety code regarding the safe handling of meals during transport to and
                    storage at the service sites.

                    We also noted errors by all three sponsors resulting in inaccuracies in the
                    numbers of meals, costs, or income reported on their claims for
                    reimbursement. These errors resulted, in part, from the claiming of
                    unallowable or unsupported meals or costs. One sponsor failed to fully
                    report all of its program income. We questioned $45,535 (24 percent) of the
                    $186,982 in reimbursement that was or would have been paid to the three
                    sponsors for the claims we reviewed (see exhibit A1). In addition, one
                    sponsor received an $8,100 excess advance payment (see exhibit B, excess
                    advance). In total, we recommend recovery of $53,635.

                    Based on additional deficiencies we found at one of the three sponsors, we
                    concluded the sponsor was seriously deficient in its administration of the
                    program. Specifically, we found this sponsor failed to serve meals
                    containing all required components, did not report accurately to the State
                    agency on its operations and obtain required approvals, failed to adequately
                    monitor its service site and train its staff, and did not maintain accurate and
                    reliable records to support its operations. In accordance with program
                    regulations, the State agency should terminate this sponsor from the program
                    if it does not correct its deficiencies.

                    We concluded that the State agencies had generally carried out their
                    administrative responsibilities in accordance with regulatory requirements.
                    However, in light of the deficiencies found at the three California sponsors,

 USDA/OIG-A/27099-34-SF                                                                    Page i
                   we concluded that the California State agency should make certain
                   improvements to its oversight procedures, relating to safe food handling
                   processes and identification of potential problem areas.

                   We did not note any reportable issues relating to either the State agency or
                   the one sponsor we reviewed in Nevada.

Recommendations
in Brief           We recommend that the FNS Regional Administrator:

                   •     Instruct the California Department of Education to bill the three sponsors
                         $53,635 to collect the overpayments they received.

                   •     Instruct the California Department of Education to revise its sponsor
                         controls, sponsor training, and sponsor review procedures to better
                         ensure that sponsors comply with safe food handling procedures.

                   •     Instruct the California Department of Education to revise its sponsor
                         review procedures to better identify potential problem areas.

                   •     Coordinate with the California Department of Education to evaluate the
                         conditions discussed in this report pertaining to one of the three sponsors
                         reviewed, and determine if the sponsor was seriously deficient in its
                         administration of the program. If so determined, instruct the State agency
                         to ensure that the deficiencies are corrected or the sponsor is terminated
                         from the program.

                   •     Instruct the California Department of Education to ensure that the two
                         other sponsors we reviewed correct the deficiencies identified in this
                         report.

Agency
Response           In its August 8, 2007, written response to the draft report, FNS concurred
                   with all of the recommendations.

OIG Position       We accept FNS’ management decision on all of the recommendations except
                   for recommendations 6, 7, 9, 10 and 11. To accept management decision on
                   these recommendations, we will need to receive copies of the billings issued
                   by the State agency to the sponsors.




USDA/OIG-A/27099-34-SF                                                                     Page ii
Abbreviations Used in This Report

CDE        California Department of Education
CFR        Code of Federal Regulations
FNS        Food and Nutrition Service
OIG        Office of Inspector General
PL         Public Law
SFSP       Summer Food Service Program
USDA       United States Department of Agriculture




USDA/OIG-A/27099-34-SF                               Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Table of Contents ...................................................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. California Department of Education ............................................................................. 3

        Finding 1             Three California sponsors failed to ensure that safe food handling
                              requirements were met. ........................................................................................... 3
                                  Recommendation 1 .......................................................................................... 6
                                  Recommendation 2 .......................................................................................... 7
                                  Recommendation 3 .......................................................................................... 7
        Finding 2             One California sponsor was seriously deficient in its administration of the
                              program. .................................................................................................................. 8
                                  Recommendation 4 ........................................................................................ 19
                                  Recommendation 5 ........................................................................................ 19
                                  Recommendation 6 ........................................................................................ 20
                                  Recommendation 7 ........................................................................................ 20
                                  Recommendation 8 ........................................................................................ 21
        Finding 3             Deficiencies noted at two other California sponsors............................................. 22
                                  Recommendation 9 ........................................................................................ 24
                                  Recommendation 10 ...................................................................................... 24
                                  Recommendation 11 ...................................................................................... 24
                                  Recommendation 12 ...................................................................................... 25

Scope and Methodology........................................................................................................................ 26

Exhibit A – Summary of Monetary Results ....................................................................................... 28
Exhibit A1 – Summary of Monetary Results – Excluding Excess Advance.................................... 29
Exhibit B – Summary of Monetary Results – Sponsor A.................................................................. 30
Exhibit C – Summary of Monetary Results – Sponsor B.................................................................. 31
Exhibit D – Summary of Monetary Results – Sponsor C.................................................................. 32
Exhibit E – Schedule of Questioned Operating Costs – Sponsor A ................................................. 33
Exhibit F – Schedule of Questioned Operating Costs – Sponsor B.................................................. 34
Exhibit G – Schedule of Questioned Meals – Sponsor A................................................................... 35
Exhibit H – Agency’s Response ........................................................................................................... 37


 USDA/OIG-A/27099-34-SF                                                                                                                      Page iv
Background and Objectives
Background       The Summer Food Service Program (SFSP) began in 1968 as a 3-year pilot
                 program providing grants to States to help provide nutritious meals for
                 children, ages 18 years and younger, when school was not in session. Under
                 the program, free meals meeting Federal nutrition guidelines are provided to
                 all children at approved program sites. Generally, sites are located in
                 low-income areas, or serve specific groups of low-income children
                 (low-income means that half of the children in the area or group are eligible
                 for free or reduced-price school meals). Most sites are categorized as “open”
                 (meals are available to all children in the area), “restricted open” (attendance is
                 limited for safety or control reasons), or “closed enrolled” (only specified
                 groups of children are served).

                 The SFSP is administered nationally by the Food and Nutrition Service (FNS)
                 and within each State by the State educational agency, an alternate
                 State-designated agency, or the appropriate FNS regional office. In California
                 and Nevada, the State agencies administering the program are, respectively,
                 the California Department of Education and the Nevada Department of
                 Education. The program is operated locally by approved public or private
                 nonprofit sponsoring organizations (sponsors) under annual agreements with
                 the administering agency. Sponsors receive Federal reimbursement through
                 the administering agency to cover the cost of preparing and serving meals, and
                 associated administrative costs. Reimbursement is generally limited to the
                 lesser of (1) the sponsor’s actual costs; (2) the number of eligible meals served
                 times a predetermined rate per meal; or, for administrative costs only, (3) costs
                 approved in the sponsor’s budget. Sponsors may prepare the meals
                 themselves, either on-site or at a central kitchen, or purchase meals from a
                 vendor.

                 State agency responsibilities include: (1) developing and disseminating State
                 policy for the administration of the program; (2) reviewing and approving the
                 sponsor applications to participate; (3) measuring progress in achieving
                 program goals by monitoring local level operations; (4) providing technical
                 assistance and guidance to sponsors; and (5) establishing a reimbursement
                 system with appropriate controls.

                 Sponsor responsibilities include: (1) applying to the State agency to participate
                 in the program; (2) entering into a written agreement with the State agency if
                 the application is approved; (3) managing program operations at service sites;
                 (4) maintaining accurate financial and accounting records, including support
                 for all costs of operating the program; and (5) providing meals that meet
                 program requirements.



USDA/OIG-A/27099-34-SF                                                                     Page 1
                                    In 1979, Public Law (P.L.) 96-108 placed limitations on the size of some
                                    participating private nonprofit sponsors. The Omnibus Budget Reconciliation
                                    Act of 1981 (P.L. 97-35) prohibited private nonprofit sponsors, except for
                                    schools and camps, from participating in the program. This exclusion came
                                    about because some of the organizations had been found to have mismanaged
                                    program funds. In 1989, the Child Nutrition and WIC Reauthorization Act
                                    (P.L. 101-147) 1 readmitted private nonprofit sponsors, with certain
                                    restrictions. In 1994 and 1998, the Healthy Meals for Healthy Americans Act
                                    (P.L. 103-448) and the William F. Goodling Child Nutrition Act
                                    (P.L. 105-336) removed the remaining restrictions.

                                    Program regulations are located at 7 Code of Federal Regulations (CFR) 225,
                                    “Summer Food Service Program.” Sponsors are required to operate their meal
                                    service within the provisions of the above regulations and any instructions or
                                    handbooks issued by FNS or by the State agency. Guidance provided to
                                    sponsors by FNS includes four handbooks (“Administrative Guidance for
                                    Sponsors,” “Monitor’s Guide,” “Site Supervisor’s Guide,” and “Nutrition
                                    Guidance for Sponsors”). Financial management guidance is provided through
                                    FNS Instruction 796-4.

Objectives                          Our objectives were to

                                    •    Evaluate the adequacy of the State agencies’ administration of the
                                         program.

                                    •    Evaluate sponsor compliance with program regulations and policies.

                                    See the Scope and Methodology section at the end of this report for details of
                                    our audit methodology.




1
    The Special Supplemental Nutrition Program for Women, Infants, and Children is most commonly known as the WIC program.


    USDA/OIG-A/27099-34-SF                                                                                                   Page 2
Findings and Recommendations
Section 1. California Department of Education

                               None of the three California sponsors we reviewed fully complied with safe
                               food handling procedures designed to minimize the risk of food contamination.
                               We also concluded that one of the three sponsors (Sponsor A) was seriously
                               deficient in its administration of the program, and should be terminated from the
                               program if it does not correct the deficiencies identified. We identified lesser
                               deficiencies at the other two sponsors we reviewed (Sponsors B and C). We
                               questioned $45,535 (24 percent) of the $186,982 in reimbursement that was or
                               would have been paid to the three sponsors for the claims we reviewed. This
                               represented 42 percent of Sponsor A’s reimbursement, 10 percent 2 of Sponsor
                               B’s reimbursement, and 59 percent of Sponsor C’s reimbursement. We are
                               recommending that FNS collect back $53,635 from the State agency (the
                               California Department of Education) for the overpayments. This amount
                               exceeds the amount questioned due to an excess advance payment of $8,100
                               which is still outstanding (see exhibit B, excess advance).

                               We concluded that the California Department of Education had carried out its
                               administrative responsibilities in accordance with regulatory requirements.
                               However, in light of the deficiencies found at the three California sponsors, we
                               concluded that the California State agency should make certain improvements to
                               its oversight procedures, relating to safe food handling processes and
                               identification of potential problem areas.

Finding 1                      Three California sponsors failed to ensure that safe food handling
                               requirements were met.

                               None of the three California sponsors we reviewed fully ensured that program
                               meals were prepared, transported, and stored under safe and sanitary conditions.
                               Each sponsor failed to maintain meals at proper temperatures while being
                               transported to service sites, and two of the sponsors failed to ensure that meals
                               were stored at proper temperatures at the sites. While sponsors bear the primary
                               responsibility for ensuring they comply with program requirements, State
                               agency procedures were not adequate to ensure that weaknesses in sponsor
                               controls over food safety were identified. As a result, the risk of food
                               contamination was increased.



2
  For one of the claim months reviewed (June 2006), Sponsor B participated in both the SFSP and a California snack pilot program. Data for both
programs is combined and reported on the same claim for reimbursement form. For this reason, the percentage of costs questioned for the SFSP is
understated somewhat, because we did not have the data necessary to separately identify the actual costs for just the SFSP.



 USDA/OIG-A/27099-34-SF                                                                                                             Page 3
                                Regulations 3 require that sponsors comply with State and local health codes. In
                                California, these requirements are set forth in the California Health and Safety
                                Code. The code 4 requires that, generally, meals be stored at no more than
                                41 degrees (up to 45 degrees if being transported for over 30 minutes).
                                Regulations 5 and the FNS sponsor’s handbook 6 require that meals be delivered
                                no more than one hour in advance of meal service, unless the site has proper
                                food storage facilities.

                                Among their responsibilities for administering the program, State agencies are
                                required to review sponsors and sites to ensure compliance with regulations and
                                other program requirements. The frequency of reviews varies, but at a minimum,
                                sponsors must be reviewed at least once every three years. As part of each
                                sponsor review, the State agency must also review at least 10 percent of the
                                sponsor’s sites, or one site, whichever number is greater. State agency review
                                procedures cover the area of safety and sanitation, but do not specifically require
                                evaluation of whether meals are being kept at proper temperatures. 7

                                Preparation of Meals. We observed numerous flies in Sponsor A’s kitchen,
                                sometimes landing on food, while program meals were being prepared. This was
                                due to the lack of a door on one kitchen doorway, and a screen door with a large
                                hole in it on another doorway. The California Health and Safety Code (section
                                114030) requires food facilities to be equipped and operated as to keep out,
                                among other things, insects. The concern about flies had been noted in a 2004
                                State agency review, but Sponsor A was not required to fix the problem, and had
                                not done so.

                                Transporting of Meals. None of the three sponsors made sure that meals were
                                kept at proper temperatures while being transported to service sites. The
                                sponsors did not utilize refrigerated trucks or keep meals in cooled containers
                                (such as ice chests with ice packs). Meals were placed in uncooled ice chests,
                                open plastic crates, and cardboard boxes, for transport in personal vehicles or
                                unrefrigerated delivery trucks.

                                Sponsor A’s single site was located about 10 minutes away, by car, from the
                                sponsor’s kitchen. Sponsor B had over 20 sites, and used two nonrefrigerated
                                delivery trucks, each truck making one daily trip. Although deliveries generally
                                took two to three hours to complete, the sponsor did not believe the meals were
                                in the trucks long enough to justify the cost of refrigerated trucks. Sponsor C
                                made separate trips to its two sites (one about 5 minutes away and one about
                                20 minutes away).

3
  7 CFR 225.16 (a), dated January 1, 2006.
4
  Section 113995 (c), effective 2006. Note that section 113875 states that “Retail” means the storing, preparing, servings, transporting or otherwise
handling food for dispensing or sale directly to the consumer.
5
  7 CFR 225.16 (c)(5), dated January 1, 2006.
6
  2006 Administrative Guidance for Sponsors, page 44, revised December 2005.
7
  This requirement exists for vended sites; however, all of the reviewed sponsors prepared the meals themselves.


    USDA/OIG-A/27099-34-SF                                                                                                               Page 4
                                  At one of Sponsor C’s sites, a sample of milk we measured registered
                                  56 degrees, even though it had just been removed from a 40-degree refrigerator.
                                  The site supervisor said that the milk had been too warm when it was delivered,
                                  and that this was an ongoing problem. Although a sponsor official told us that
                                  milk was delivered in ice chests, we observed it actually being transported in
                                  open milk crates.

                                  Receipt of Meals at Site. At the time meals were delivered to Sponsor A’s site,
                                  personnel did not inspect and count the meals, sign for delivery, and check food
                                  temperatures, as required by the site supervisor’s handbook. 8 Section 114003 (c)
                                  of the California Health and Safety Code also requires that “food shall be
                                  inspected as soon as practicable upon receipt [and] potentially hazardous food
                                  shall be inspected for signs of spoilage and randomly checked for adherence to
                                  the temperature requirements set forth in Section 113995.”

                                  Storage of Meals. We also noted concerns with how meals were stored by
                                  Sponsor A both before and after delivery to its site. According to the sponsor’s
                                  executive director, lunches were normally taken from the kitchen to the site
                                  about three hours before lunch service, due to the lack of adequate refrigerator
                                  space at the sponsor’s site. We confirmed this by observing one lunch
                                  preparation. Meals were prepared by 7:45 a.m. and stored in plastic ice chests,
                                  due to the lack of adequate refrigerator space in the sponsor’s kitchen. The
                                  meals were taken for delivery at 9 a.m., for a 12 noon meal service. On an
                                  earlier day, we had observed meals being stored at the site in ice chests, and
                                  noted that they had no means of keeping the food cool (i.e., ice or ice packs).
                                  While the site had a refrigerator for storing milk, it did not have refrigerators for
                                  the rest of the meals.

                                  The refrigerators at one of Sponsor C’s two satellite sites were unable to cool
                                  down to the required 41 degree maximum. The sponsor rented the refrigerators
                                  for the site, was aware of the problem and had arranged to get the refrigerators
                                  repaired, but the repairs were ineffective. When we visited the site, one
                                  refrigerator registered 60 degrees and the other 70 degrees. We believe that until
                                  the refrigerators were effectively repaired, the sponsor should have delivered the
                                  meals later (not more than one hour of meal service, which would have
                                  complied with regulations). Instead, meals were delivered an average of two
                                  hours before lunch service and more than five hours prior to snack service.

                                  Storage of Food Inventory. Sponsor B lacked a process to ensure the oldest
                                  foods in storage were used first. Sponsor B purchased some food items in bulk
                                  quantities from commercial food vendors and stored them in a refrigerated
                                  trailer. FNS’ nutritional guidance handbook 9 requires sponsors to use foods on a
8
    2006 Site Supervisor’s Guide, page 5, revised December 2005.
9
    2005 Nutrition Guidance For Sponsors, page 65, dated January 2004.


    USDA/OIG-A/27099-34-SF                                                                                    Page 5
                                   “first-in, first-out” basis, meaning that when items are removed from inventory,
                                   the oldest items should be taken first. However, the sponsor did not date-mark
                                   food items upon receipt. The sponsor employee who was responsible for
                                   maintaining the stored food inventory told us that he knew which items had been
                                   received first, and relied on his memory to ensure the oldest goods were used
                                   first. However, in the event this employee was not working, other employees
                                   would not be able to determine which items should be used first.

                                   Sponsor B also failed to adequately safeguard food in storage from
                                   contamination. Sponsor B rented a refrigerated trailer to store bulk refrigerated
                                   and frozen food prior to use. FNS’ nutrition guidance handbook 10 requires
                                   sponsors to maintain the integrity of food in storage, and safeguard it from
                                   contamination. The trailer’s refrigeration unit was mounted at the front of the
                                   trailer, with a portion of the unit extending into the interior of the trailer. Some
                                   boxes containing food items were stored underneath the refrigeration unit,
                                   allowing condensation to drip on the stored items. Sponsor officials were
                                   unaware of this problem until it was brought to their attention by a county health
                                   inspector. A sponsor official agreed to move the food boxes from under the
                                   refrigeration unit and install a drip pan under it. We could not confirm the
                                   corrective action was taken because, at the time of our followup visit, the
                                   2006 program had ended and the trailer had been returned to the vendor.
                                   However, if the sponsor rents a food storage trailer in the future, the State
                                   agency should ensure that this problem does not recur.

Recommendation 1

                                   Instruct CDE to implement a requirement that all sites document, on a daily
                                   basis, the temperatures of meals received from the sponsor, and maintain these
                                   records for subsequent review by the sponsor and State agency.

                                   Agency Response.

                                   FNS agreed with this recommendation and will instruct CDE to, within 60 days,
                                   implement procedures to assess, during reviews, that sites take meal
                                   temperatures upon receipt on a daily basis. (Estimated completion date: October
                                   31, 2007)

                                   OIG Position.

                                   We accept FNS’ management decision on this recommendation.




10
     2005 Nutrition Guidance For Sponsors, page 65, dated January 2004.


     USDA/OIG-A/27099-34-SF                                                                                   Page 6
Recommendation 2

                Instruct CDE to revise its review procedures to place a greater emphasis on
                monitoring sponsor compliance with food safety requirements. Specifically,
                CDE reviewers should be required to (1) evaluate whether sponsors are
                transporting and storing meals at proper temperatures, and (2) measure the
                temperature of refrigerators when conducting site reviews.

                Agency Response.

                FNS agreed with this recommendation and will instruct CDE to, within 60 days,
                revise its sponsor and site review procedures to assess sponsor compliance with
                all aspects of food safety requirements. FNS will also accompany CDE on its
                fiscal year 2008 reviews to ensure the procedures have been implemented.
                (Estimated completion date: October 31, 2007)

                OIG Position.

                We accept FNS’ management decision on this recommendation.

Recommendation 3

                Instruct CDE to emphasize, in the training it provides to sponsors, the
                requirements relating to safe food handling discussed in this report, particularly
                as they relate to holding temperatures.

                Agency Response.

                FNS agreed with this recommendation and will instruct CDE to place greater
                emphasis on food safety, specifically food handling, holding temperatures, and
                storing and transporting meals during its fiscal year 2008 training. (Estimated
                completion date: June 15, 2008)

                OIG Position.

                We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27099-34-SF                                                                   Page 7
Finding 2                     One California sponsor was seriously deficient in its administration
                              of the program.

                              Sponsor A violated numerous program requirements, and as a result, failed to
                              provide adequate nutrition to participating children, and claimed excessive costs
                              and meals for reimbursement. In accordance with regulations, the State agency
                              should determine the sponsor seriously deficient, and terminate it from the
                              program if it fails to correct its deficiencies. While the sponsor bears the
                              ultimate responsibility for complying with program requirements, we concluded
                              that State agency procedures were not adequate to identify sponsor
                              noncompliance with program requirements.

                              Regulations 11 instruct State agencies to terminate (or not enter into) agreements
                              with seriously deficient sponsors. However, prior to termination, State agencies
                              are required to provide such sponsors an opportunity to correct their
                              deficiencies. The regulations cite the following as examples of serious
                              deficiencies which could result in termination or nonapproval, including (but not
                              limited to) the following program violations at a significant proportion of the
                              sponsor’s sites: non-compliance with meal service time restrictions, failure to
                              maintain adequate records, failure to adjust meal orders to conform to variations
                              in the number of participating children, claiming of payments for meals not
                              served to participating children, serving a significant number of meals which did
                              not include required quantities of all meal components, and excessive instances
                              of off-site meal consumption. The State agency provided additional guidance
                              regarding serious deficiencies. 12

                              As mentioned previously, State agencies are required to review sponsors and
                              sites to ensure compliance with regulations and other program requirements.
                              California State agency procedures do not require reviewers to, in preparation
                              for conducting reviews, review reports from prior year reviews. We believe this
                              would be useful, so that reviewers would be aware of concerns that were noted
                              in the past. A minor deficiency that does not rise to the level of being a
                              reportable finding based on a single occurrence may be of more concern if it is
                              part of a recurring pattern.

                              Reviewers are required to complete a “High Risk Survey Sheet” during the
                              review. The High Risk Survey Sheet was developed in response to an audit of
                              the Child and Adult Care Food Program and is used for multiple nutrition
                              programs administered by the State agency. It is intended to identify sponsors
                              needing increased review. At the time of the audit, there were no SFSP sponsors
                              identified as high risk. However, because the form was not designed specifically

11
  7 CFR 225.11 (c), dated January 1, 2006.
12
  Section 1600 of the Programs Reference Guide (dated August 2006), and a policy document entitled “SFSP Procedures for Seriously Deficient
Sponsors (dated May 2006).


     USDA/OIG-A/27099-34-SF                                                                                                     Page 8
                                for the SFSP, it does not include the types of concerns we identified in the audit
                                as detailed in the following sections. We believe a program-specific form should
                                be developed to identify risk factors pertinent to the SFSP.

                                Based on the deficiencies discussed in Finding 1, and the additional deficiencies
                                detailed below, we concluded that Sponsor A should be determined seriously
                                deficient in its administration of the program. We discussed this conclusion, and
                                the basis for it, with FNS and CDE officials, and they concurred with it.
                                Although some of the same concerns were noted in State agency reviews in
                                2002 and 2004, the sponsor failed to take corrective action.

                                As discussed in the following sections, we determined that 2,939 of the
                                8,547 meals the sponsor claimed for reimbursement should not be reimbursed. 13

                                A. Sponsor A failed to include all required components in meals, or served less
                                   than the minimum amount required.

                                     The National School Lunch Act 14 requires sponsors to serve meals meeting
                                     prescribed nutritional standards. The specific standards are set forth in
                                     regulations, 15 which specify four food categories (called meal components):
                                     milk, vegetables and fruits, bread and bread alternates, and meat and meat
                                     alternates. Minimum quantities are specified for each component. Lunches
                                     and suppers must include all four components; breakfasts must include three
                                     components (all but meat); and snacks must include two components.
                                     Sponsors may be reimbursed only for meals that include specified quantities
                                     of all required components. 16

                                     Required components were missing from some meals claimed. We observed
                                     two meal services, a breakfast and a lunch, at Sponsor A’s site. Breakfasts
                                     must include milk, fruit or vegetable, and bread or bread alternate. The
                                     breakfast service we observed consisted of cold cereal (which satisfies the
                                     bread requirement) and milk, but no fruit item. Site staff told us the same
                                     items were served each day, and fruit was not included, although the
                                     sponsor’s meal production records 17 for that (and every other) day of service
                                     listed fruit as part of the breakfast meal. We questioned the 35 meals served
                                     at the breakfast we observed (see exhibit G, code D).

                                     We also observed a lunch service. Lunches must include all four food
                                     components. The lunch we observed consisted of a sandwich (2 slices of
13
   The total number of meals questioned in the following sections of this report exceeds the number we are recommending not be reimbursed because
some meals are questionable for more than one reason. See exhibit G for details.
14
   Richard B. Russell National School Lunch Act, section 13 (f), dated July 2, 2004.
15
   7 CFR 225.16 (b) and (d), dated January 1, 2006.
16
   FNS Instruction 796-4, Rev. 4, paragraph XII B 3 a (2) (f), dated May 21, 1992.
17
   The State agency requires sponsors (through a provision in the sponsor agreement) to maintain meal production records to support that sufficient
quantities of food were utilized to satisfy serving size requirements. These records document the amounts of each food component used and the number
of meals produced.


     USDA/OIG-A/27099-34-SF                                                                                                             Page 9
                                      bread and cheese), a plum, and a cucumber. However, instead of milk, a
                                      “punch” drink was served. The drink was prepared from a powdered mix
                                      and dispensed from a large beverage cooler.

                                      The site was operated by a religious school. Sponsor personnel told us that
                                      milk was not served with meals including meat in accordance with their
                                      religious dietary laws. A site staff member told us this occurred about twice
                                      a week. The sponsor’s cycle menu 18 and meal production records also
                                      indicated that sandwiches with meat were served twice a week. 19

                                      FNS policy 20 provides alternative procedures to accommodate this dietary
                                      requirement. It allows sites to substitute full-strength fruit juice for milk, up
                                      to twice a week. However, the punch drink would not satisfy this
                                      requirement, as it is not full-strength fruit juice. In addition, on the day we
                                      observed lunch, no meat was served, so milk could have been served.

                                      We questioned the 38 lunches claimed on the day we observed lunch, which
                                      did not include milk (see exhibit G, code E).

                                      Some meals did not contain the minimum serving sizes of food components.
                                      Sponsor A’s records showed that lunches included both cheese sandwiches
                                      and yogurt on each Monday for the first six weeks of the program, and that
                                      these items were also served on Friday of the seventh week. 21 In total, the
                                      sponsor claimed 824 lunches served on these seven days during the seven
                                      week period.

                                      Both cheese and yogurt can satisfy the meat component requirement. By
                                      themselves, the cheese sandwiches would not have satisfied the requirement
                                      because they did not include the minimum serving size of 2 oz. of cheese.
                                      Sponsor records showed the sponsor purchased only 48 pounds of cheese,
                                      which would have allowed an average serving size of only 0.9 oz. per
                                      sandwich. The sponsor’s meal production records also supported the
                                      conclusion that insufficient quantities were used, showing that 82 pounds of
                                      cheese were used to make 950 sandwiches, an average of less than 1.4 oz.
                                      per sandwich.

                                      The yogurt by itself would have satisfied the requirement, as each serving
                                      contained the required 8 oz. However, according to its records, the sponsor
                                      purchased only 650 servings of yogurt, or 174 fewer than the number of
18
   A cycle menu describes the meals to be served over a specified number of days. When the end of the period is reached, the menu is repeated. In this
case, the menu covered five days (Monday through Friday), so the meal provided on any given day (Monday, Tuesday, etc.) would also be provided on
the same day in any other week.
19
   Meal production records indicated that the same menu items were prepared each week (150 lunches and 150 breakfasts) for the first six weeks of the
sponsor’s eight-week program. For the seventh week (which was the week of our visit), a smaller number of meals were prepared (50 breakfasts and
50 lunches), with some of the menu items served on different days than in the preceding weeks.
20
   FNS Instruction 783-13 (Rev. 2, dated 12/3/92)
21
   We did not have available records for the eighth week of the program.


     USDA/OIG-A/27099-34-SF                                                                                                             Page 10
                                        meals claimed. Any meals containing cheese sandwiches but not yogurt
                                        would not have satisfied the minimum serving size requirements. We are
                                        therefore questioning these 174 meals (see exhibit G, code F).

                                        Sponsor A served meals “family-style,” but was not eligible to use this type
                                        of meal service. FNS policy 22 provides an exception, called “family-style”
                                        meal service, to the general requirement that each meal claimed for
                                        reimbursement must contain the minimum serving size of each required
                                        component. Under family-style meal service, children may initially be
                                        served less than the minimum serving size, provided certain conditions are
                                        met. Specifically, each child must be given some amount of each
                                        component, and be encouraged to take the full portion. Additional food must
                                        be placed on each table, available to children wishing to take another
                                        serving. Only camps are eligible to use family-style meal service.

                                        We observed Sponsor A using family-style meal service for breakfast.
                                        Children were provided empty bowls and cups, then served milk and cereal
                                        from bulk containers. We also observed drinks being served family-style at
                                        lunch. Children were provided empty cups, which they brought to another
                                        table, where they were served the “punch” drink from a large beverage
                                        cooler.

                                        Because Sponsor A’s site was not classified as a camp, it was not allowed to
                                        use this type of meal service (as discussed below, Sponsor A’s site was
                                        classified as a “closed enrolled” site).

                                  B. The numbers of meals served, operating expenses, and administrative costs
                                     reported by Sponsor A on its claims for reimbursement were inaccurate,
                                     unallowable, or not supported by reliable records.

                                        Regulations 23 require sponsors to maintain accurate records in support of all
                                        meals claimed and costs reported, and cite the lack of records as grounds for
                                        denying reimbursement.

                                        Sponsor A claimed excessive numbers of meals served. Sponsor A
                                        overclaimed at least 1,744 meals (at least 868 excess breakfasts and
                                        876 excess lunches) for the two-week period July 24 through August 4,
                                        2006. The overclaim resulted from the sponsor claiming meals in excess of
                                        the number of children that were enrolled during this period.

                                        Sponsor A told us the site operated three summer sessions. According to the
                                        sponsor, the first two sessions had more children enrolled than the third
                                        session (which purportedly began on August 7, the date of our initial visit to
22
     FNS Instruction 783-3 (dated 8/28/86). The FNS sponsor handbook provides similar guidance.
23
     7 CFR 225.15 (c)(1), dated January 1, 2006.


     USDA/OIG-A/27099-34-SF                                                                                 Page 11
                                       the sponsor). The sponsor was able to provide us only one enrollment roster,
                                       which listed the names of 132 children. We obtained a second roster at the
                                       site (for the then-current session) which listed 44 children. Meal count forms
                                       recorded that between 128 and 134 children were served at each meal
                                       service between June 26 and August 4, then the number of children served
                                       dropped to between 32 and 38 per meal service between August 7 and 18.

                                       Based on documentation and information gathered through interviews, 24 we
                                       concluded that there were in fact only two sessions, with the second session
                                       beginning on July 24. Therefore, for this two-week period, although the
                                       sponsor claimed 128 or more meals per meal service, it should not have
                                       claimed more than 44, based on the number of children enrolled during this
                                       period.

                                       We determined that 1,744 excess meals were claimed by disallowing all
                                       meals claimed during this period in excess of 44 per meal service 25 (see
                                       exhibit G, code B).

                                       We are also questioning 207 meals claimed for August 16 through 18, based
                                       on documentation stating that the second session ended on August 15; 26 and
                                       an additional 261 meals claimed for July 4, a day its site was closed. The
                                       sponsor claimed 131 breakfasts and 130 lunches for that day, although the
                                       sponsor had reported to the State agency that it would be closed (see exhibit
                                       G, code A).

                                       On four days, Sponsor A claimed more meals than were supported by its
                                       enrollment records. Although these records showed only 132 children were
                                       enrolled for the first six weeks of the program, the sponsor claimed
                                       133 breakfasts on two days, 133 lunches on one day, and 134 lunches on
                                       another day. We questioned these 5 meals (see exhibit G, code I).

                                       Sponsor A filed two claims for reimbursement, one for June and July 2006,
                                       and one for August 2006. There were minor discrepancies between the total
                                       number of meals reported on the two claims, and the total numbers of meals
                                       recorded on the daily meal count forms. The claims for reimbursement
                                       included one less breakfast and four more lunches than recorded on the meal
                                       count forms (see exhibit G, code K). However, because the sponsor was not
                                       paid on the claims it submitted (as discussed below), this discrepancy had no
                                       impact on the monetary recommendation for Sponsor A.
24
   We based our conclusion that there were only two sessions, with the second session beginning on July 24, on the following: (1) we were only provided
two enrollment lists, the latter of which was entitled “Second Session;” (2) a newsletter put out by the site clearly referred multiple times to a “second
session” which would begin on July 24 and end on August 15; and (3) on our first visit to the site, a site staff person told us that there were two sessions,
the first being mandatory (for children enrolled at the school) and including 150 to 200 students, and the second being optional, and including about
50 students.
25
   The number of meals overclaimed is likely substantially greater than 1,744, as we have allowed 44 meals per meal service, although the sponsor
actually only reported between 32 and 38 meals per meal service, and we observed even fewer (27 lunches and 32 breakfasts).
26
   Newsletter cited in prior footnote.


 USDA/OIG-A/27099-34-SF                                                                                                                        Page 12
                                     Sponsor A did not take “point-of-service” meal counts. Sponsor A also did
                                     not follow procedures to ensure the numbers of meals claimed were
                                     accurate, and as a result, claimed more meals than had been served. FNS’
                                     sponsor handbook 27 requires that counts of meals served be taken at “point-
                                     of-service,” and provides a proforma meal count form to facilitate this
                                     process. The form includes a grid of sequential numbers and instructions to
                                     the user to cross off the next number as each child is served. Although these
                                     forms were used by the sponsor to record meal counts, they were not
                                     prepared at the point-of-service. Instead, they were prepared and signed after
                                     the meal service was over, by the site supervisor, who was not normally
                                     present at meal services. The site supervisor told us he had delegated
                                     responsibility for counting meals to a junior staff member, who would count
                                     the meals served and call the site supervisor with the number after the meal
                                     service was over. The junior staff member confirmed this process, and told
                                     us he counted the meals “in his head.”

                                     This process resulted in inaccurate meal counts. The forms for both of the
                                     meal services we observed recorded more meals than had actually been
                                     served. At one meal service, we observed 27 lunches served to children, but
                                     the meal count form recorded 38 lunches. At the other meal service,
                                     32 breakfasts were served, but the meal count form recorded 35 breakfasts. 28
                                     We questioned the 14 excess meals claimed (see exhibit G, code J).

                                     Sponsor A failed to adjust daily meal orders. The site did not adjust the
                                     number of meals prepared and delivered on a daily basis, as required by
                                     regulations for the purpose of providing only one meal per child. 29
                                     According to Sponsor A, this was because attendance did not vary much, if
                                     at all, from day to day. Meal production records indicated that 150 lunches
                                     per day were prepared for the first session, and 50 lunches per day for the
                                     second session. However, for the lunch service we observed, only 32 meals
                                     were served (27 children, 4 program adults, and 1 nonreimbursable meal
                                     served to a nonenrolled child), and for the 2-week period corresponding to
                                     our initial visit, Sponsor A claimed only 33 to 38 lunches per day.

                                     Sponsor A did not provide documentation to support some food costs.
                                     According to the meal production records, Sponsor A satisfied the meat
                                     component requirement for Friday lunches during the first six weeks of the
                                     program by serving peanut butter sandwiches and eggs. However, no
                                     receipts were provided to us to support the purchase of these items.


27
   2006 Administrative Guidance for Sponsors, page 66.
28
   We concluded that the excess meals had been claimed for reimbursement, as the August 2006 claim included 4 more breakfasts than had been recorded
on the meal count forms, and the number of lunches was the same. For the June/July 2006 claim, Sponsor A underclaimed one lunch. The number of
breakfasts matched.
29
   7 CFR 225.15 (b)(3), dated January 1, 2006.


     USDA/OIG-A/27099-34-SF                                                                                                           Page 13
                                          Therefore, we are questioning the 790 lunches claimed on these dates (see
                                          exhibit G, code G).

                                          Some of the operating costs claimed by Sponsor A were questionable.
                                          Sponsor A provided us with receipts to support the actual operating costs
                                          (i.e., meal costs) it reported on its claims. However, some of the items shown
                                          on the receipts (such as a coffee creamer) clearly could not have legitimately
                                          been used in the program. Some supply items would not likely have been
                                          needed based on the specific food items that were served per the meal
                                          production records (such as compartmentalized plates and forks). Sponsor A
                                          operated two other food programs (a senior meal program, and bread sales
                                          from the sidewalk in front of its office), and some items could have been
                                          used in these other programs (the plates, for example). It appeared that the
                                          amount of bread purchased (the cost of which was included in the sponsor’s
                                          claim) significantly exceeded what was needed for the program. Based on
                                          meal production records, the sponsor would have needed 270 loaves of bread
                                          for the first five weeks of the program. 30 However, for this period, the
                                          sponsor reported the cost of 378 loaves, or 40 percent more. In total, we
                                          questioned $2,368 in operating costs. See exhibit E for details of specific
                                          questioned costs.

                                          Sponsor A did not provide documentation to support administrative costs
                                          claimed. We questioned the full $2,666 in administrative costs reported by
                                          Sponsor A due to the lack of supporting documentation. Even after several
                                          requests, the sponsor failed to provide us supporting documentation for the
                                          administrative costs reported on its 2006 claims. Also, although Sponsor A
                                          told us that most of the administrative costs it reported were indirect costs, it
                                          had not indicated on the budget it submitted to the State agency that it would
                                          claim indirect costs. Sponsors electing to use indirect costs must provide
                                          additional information to the State agency, and obtain approval of the rate.

                                          We also noted errors on the claims filed by sponsors B and C. Because we
                                          do not believe they constitute serious deficiencies, we are reporting the
                                          errors separately in finding 3.

                                    C. Sponsor A failed to carry out various administrative responsibilities.

                                          Sponsor A failed to carry out some of the administrative responsibilities it
                                          agreed to carry out as part of its agreement with the State agency.

                                          Sponsor A did not provide timely training to staff. Sponsor A provided
                                          program year 2006 training to site staff on July 1, 2006, but began claiming
                                          meals on June 26, a full week earlier. Regulations 31 prohibit sites from
30
     We excluded the first two days of this period from our calculations, because there were no bread receipts to cover this period.
31
     7 CFR 225.15 (d)(1), dated January 1, 2006.


     USDA/OIG-A/27099-34-SF                                                                                                            Page 14
                                     operating before the sponsor trains the staff. Furthermore, neither the site
                                     supervisor nor the junior staff member in charge of supervising meal
                                     services attended the training; five other junior staff members were listed on
                                     the training records. While the regulations only require that a trained person
                                     be on site at all times during meal service (which may have occurred), we
                                     believe that the persons in charge of the meal service should have been
                                     trained.

                                     It appeared that site staff were unaware of a number of significant program
                                     requirements, as they readily described practices which violated program
                                     requirements, and gave no indication that they were aware the practices were
                                     not allowed (for example, the use of family-style meal service, or the failure
                                     to record point-of-service meal counts). This indicates ineffective training on
                                     the part of Sponsor A.

                                     Sponsor A may not have conducted required site monitoring. Sponsor A’s
                                     program director told us that she had performed a first-week visit and two
                                     subsequent reviews (regulations require a first-week and a fourth-week
                                     review 32 ). The four-week review was documented, but the first week visit
                                     was not. According to FNS’ sponsor handbook, documentation of all visits is
                                     required. 33 However, both the junior staff member in charge of meal services
                                     and another junior staff member told us they had never seen anyone from
                                     Sponsor A at the site, and they did not recognize the program director’s
                                     name.

                                     Sponsor A failed to report and obtain approval for serving meals on field
                                     trips. When we visited the site to observe a third meal service, we were told
                                     that the children and meals had been loaded onto a bus for a field trip, and
                                     that the meals would be served during the field trip. Earlier, a site staff
                                     member had told us that field trips were taken about twice a week, and that
                                     sometimes (about 3 or 4 times a month) program meals were taken along.
                                     Although Sponsor A’s program director denied being aware of the field
                                     trips, the executive director knew of them (he told us that they sometimes
                                     adjusted meal delivery times to accommodate the field trips). Sponsor A did
                                     not inform the State agency of field trip dates, or ask for approvals, as
                                     required. State agency files documented only one schedule deviation
                                     request/approval, a closure on July 4. FNS’s sponsor handbook 34 requires
                                     that field trips be approved in advance by the State agency, and if the
                                     sponsor fails to do so, meals served during the field trip are not
                                     reimbursable. We questioned the 35 meals claimed by the sponsor for the
                                     day of the field trip (see exhibit G, code C).


32
   7 CFR 225.15 (d)(2) and (3), dated January 1, 2006.
33
   2006 Administrative Guidance for Sponsors, page 68.
34
   2006 Administrative Guidance for Sponsors, page 43.


     USDA/OIG-A/27099-34-SF                                                                               Page 15
                   As discussed below, Sponsor A had previously been cited for this violation
                   in 2002 and 2004 state reviews, and had agreed to comply with requirements
                   in the future.

                   Sponsor A failed to report nonoperating sites to the State agency. For 2006,
                   Sponsor A reported to the State agency that it would operate two sites,
                   beginning June 26, and received advance funding of more than
                   $27,000 based on this assertion. After being told of our audit, Sponsor A
                   notified the State agency that one of the two sites did not open and was not
                   operating in the current year, by submitting a revised Schedule A (listing of
                   sites) on August 4. As a result of this error, the sponsor received a larger
                   advance payment than it was entitled to. Sponsor A claimed that it had
                   originally submitted the revised Schedule A on July 1 (which, if true, would
                   have also been untimely, as meal services began on June 26). However, we
                   question whether the notification had actually been made, because Sponsor
                   A apparently did not follow up when the approved Schedule A was not
                   received, and because the sponsor had made a similar assertion in 2002 (i.e.,
                   upon being questioned by a State reviewer about a nonoperating site, the
                   sponsor claimed to have previously reported to the State agency that the site
                   would not operate, but State agency files contained no evidence that it had).

                   Sponsor A failed to notify the State of nonoperating sites and obtain
                   approval to serve meals at an alternate location in at least two prior years,
                   2002 and 2004, as documented in State agency reviews. In performing a
                   2002 review, a State reviewer found that two of the sponsor’s five sites had
                   not opened that year, but Sponsor A had not notified the State of this fact.
                   The reviewer also attempted to visit two sites, but was told in both cases that
                   the children were on field trips.

                   In performing the 2004 review, a State reviewer again found that one of
                   Sponsor A’s sites had not opened that year, and the sponsor had failed to
                   timely notify the State agency of this fact. The reviewer visited two sites, but
                   found that the children had been moved from one of the sites (a site run by
                   Sponsor A at its own location) to an alternate, nonapproved location without
                   notifying the state or obtaining approval. Additionally, the reviewer noted
                   that the sponsor did not have available required meal count forms, menus,
                   meal production records, and meal transport records.

                   In both cases, Sponsor A had been informed of the problems and the
                   requirements, and had agreed to comply in the future, yet we found similar
                   problems during this review.




USDA/OIG-A/27099-34-SF                                                                   Page 16
                                        Sponsor A’s site staff changed meal service times without informing
                                        Sponsor A, resulting in insufficient time between meals, and the serving of
                                        meals outside approved meal times. For the two meals we observed, the site
                                        did not serve meals during times approved by the State agency, and as a
                                        result, did not allow the minimum time required (three hours) between meal
                                        start times to elapse. 35 We observed that the site served breakfast beginning
                                        at 9:35 a.m. and lunch starting at noon. According to site staff, the meals
                                        were served at approximately the same time each day. The approved times
                                        were 9:00 a.m. to 9:30 a.m. for breakfast and 12:30 p.m. to 1:00 p.m. for
                                        lunch. (Regulations 36 state that meals served outside approved meal times
                                        are not reimbursable. We questioned the 73 meals claimed for the two meal
                                        services we observed (see exhibit G, code H).

                                        Sponsor A’s program director told us she was unaware the site was not
                                        complying with the approved meal times. While this violation was
                                        attributable to site staff, we believe that more diligent monitoring by Sponsor
                                        A could have detected the noncompliance. As noted earlier, site staff told us
                                        that they never saw a sponsor monitor at the site.

                                  During program year 2006, Sponsor A operated only one site, which was
                                  classified as a “closed enrolled” site. Regulations 37 allow a closed enrolled site
                                  to participate in the program only if half or more of the children enrolled have
                                  been determined eligible to receive free or reduced-price meals under USDA
                                  child nutrition programs. Eligibility is based primarily on the child’s household
                                  size and income. Information necessary to make an eligibility determination is
                                  reported by parents to the sponsor on income eligibility forms. If half or more of
                                  the children enrolled are determined eligible for free or reduced-price meals, the
                                  sponsor is allowed to claim reimbursement for meals served to all enrolled
                                  children, even those not income eligible.

                                  Sponsor A failed to establish that at least half of the children enrolled at its
                                  single site were eligible. The site conducted two separate sessions during the
                                  summer. We determined that the first session ran from June 26 to July 21, 2006,
                                  with 132 children enrolled; 38 and the second session ran from July 24 to
                                  August 15, 2006, with 44 children enrolled. According to site and sponsor
                                  records, income eligibility forms had been submitted for only 45 of the
                                  132 enrolled children; and only 19 of the 45 forms demonstrated eligibility (the
                                  other forms were either incomplete or showed income exceeding eligibility
                                  guidelines). Therefore, only 14 percent (19 of 132) of the children qualified for
35
   7 CFR 225.16 (c), dated January 1, 2006.
36
   7 CFR 225.16 (c)(3), dated January 1, 2006.
37
   7 CFR 225.6 (d)(i), dated January 1, 2006, requires sites to be located in “areas in which poor economic conditions exist,” which is defined in 7 CFR
225.2 (same date) as categorically including a “closed enrolled site.” The same section defines “closed enrolled site” as “a site which is open only to
enrolled children, as opposed to the community at large, and in which at least 50 percent of the enrolled children at the site are eligible for free or reduced
price school meals under the National School Lunch Program and the School Breakfast Program...”
38
   As discussed previously, although Sponsor A claimed different session dates; based on evidence obtained, we concluded the session dates were as
stated herein.


     USDA/OIG-A/27099-34-SF                                                                                                                      Page 17
                free or reduced-price meals. For the second session, income eligibility forms
                were submitted for 15 of the 44 enrolled children; but of these, only 8 met
                eligibility guidelines, meaning that only 18 percent of enrolled children (8 of 44)
                were shown to be eligible.

                We reported this issue to FNS in a September 19, 2006, management alert. We
                recommended that FNS instruct the State agency to withhold program year
                2006 payments from Sponsor A (at that time, the sponsor had not yet submitted
                any 2006 claims). In its September 28, 2006, response, FNS agreed with the
                recommendation. However, FNS subsequently informed us of an unnumbered
                FNS policy memo, issued on November 17, 2002, that allowed some closed
                enrolled sites to participate based on their location. The memo states

                   We are issuing this memorandum to permit closed enrolled sites to be
                   eligible based on area free and reduced price data for the location of the
                   site, rather than on documentation that at least half of the enrolled
                   children at each site are eligible for free or reduced price meals.

                   Therefore, any site located in an area in which at least 50 percent of the
                   children are from households eligible for free or reduced price meals
                   will be eligible for SFSP reimbursement for all meals served to eligible
                   children, regardless of whether the site serves an identified group of
                   children or is open to the community.

                This policy is also incorporated into FNS’ 2006 Administrative Guidance
                for Sponsors (page 20), which states “Sponsors can document an enrolled
                site’s eligibility by… using ‘area’ eligibility data for the location of the site,
                rather than using the income eligibility form documenting that at least half
                of the enrolled children [at] each site are eligible for free or reduced-price
                meals.”

                Sponsor A’s site was in such a location, so based on the policy, it could
                participate without having to collect income eligibility forms, and claim
                reimbursement for all meals served.

                In the management alert, we advised FNS that there were additional concerns
                regarding Sponsor A’s noncompliance with program requirements. For this
                reason, FNS told us it would instruct the State agency to withhold processing of
                the sponsor’s claims, pending issuance of this audit report.

                In all, we questioned 2,939 of the 8,547 meals claimed by Sponsor A for 2006.
                We also questioned $2,368 of the $21,842 in operating costs reported by the
                sponsor. After applying these adjustments, we determined the sponsor was
                eligible for $10,961 in program reimbursement for operating expenses (based on
                meals-times-rates, as this yielded a lower amount than the adjusted actual

USDA/OIG-A/27099-34-SF                                                                      Page 18
                operating costs of $19,474). The sponsor received an advance payment for
                operating expenses of $24,885, resulting in an overpayment of $13,924.

                We questioned all of the $2,666 in administrative costs reported, due to the lack
                of supporting records. The sponsor had received an advance payment for
                administrative expenses of $2,221, resulting in an overpayment of this amount.
                See exhibit B for details.

Recommendation 4

                Instruct CDE to revise its sponsor review procedures to ensure that potentially
                recurring issues are identified. Specifically, CDE reviewers should examine
                documentation from prior-year reviews when preparing for current-year sponsor
                reviews, to ensure they are fully aware of issues that have been identified in the
                past.

                Agency Response.

                FNS agreed with this recommendation and will work with CDE to revise its
                procedures to include researching the sponsor’s prior reviews findings and to
                document them on the current review form to ensure continuity. FNS will
                instruct CDE to implement use of prior review findings in its current-year
                sponsor reviews within 60 days. FNS will also accompany CDE on its fiscal
                year 2008 reviews to ensure the procedures have been implemented. (Estimated
                completion date: October 31, 2007)

                OIG Position.

                We accept FNS’ management decision on this recommendation..

Recommendation 5

                Instruct CDE to develop an SFSP-specific High Risk Survey Sheet. The revision
                should include risk factors relating to those identified in this report, such as the
                sponsor’s failure to inform CDE of significant changes to its program operations
                (i.e., nonoperating sites), or no children being present when site visits are
                performed.

                Agency Response.

                FNS agreed with this recommendation and will work with CDE to develop a
                High Risk Survey sheet to identify sponsors with a history of noncompliance.
                The survey sheet will help identify agencies needing follow up reviews to ensure
                permanent corrective action was implemented. FNS will request CDE develop
                the survey sheet within 60 days and implement use of the sheet during its fiscal

USDA/OIG-A/27099-34-SF                                                                    Page 19
                year 2008 SFSP reviews. FNS will also accompany CDE on its fiscal year
                2008 reviews to ensure the procedures have been implemented. (Estimated
                completion date: October 31, 2007)

                OIG Position.

                We accept FNS’ management decision on this recommendation.

Recommendation 6

                Instruct CDE to bill Sponsor A for $13,924, to collect the overpayment it
                received for operating costs.

                Agency Response.

                FNS agreed with this recommendation and will instruct CDE to bill Sponsor A
                for the overpayment within 30 days. In addition, FNS will instruct CDE to
                provide status reports on the collection efforts.

                OIG Position.

                For acceptance of FNS’ management decision, please provide, within 60 days, a
                copy of CDE’s billing to Sponsor A, along with an estimated date for collection
                of the amount.

Recommendation 7

                Instruct CDE to bill Sponsor A for $2,221, to collect the overpayment it
                received for administrative costs.

                Agency Response.

                FNS agreed with this recommendation and will instruct CDE to bill Sponsor A
                for the overpayment within 30 days. In addition, FNS will instruct CDE to
                provide status reports on the collection efforts.

                OIG Position.

                For acceptance of FNS’ management decision, please provide, within 60 days, a
                copy of CDE’s billing to Sponsor A, along with an estimated date for collection
                of the amount.




USDA/OIG-A/27099-34-SF                                                               Page 20
Recommendation 8

                In coordination with CDE, evaluate the conditions discussed in this report to
                determine if Sponsor A is seriously deficient in its administration of the
                program. If Sponsor A is so determined, and is approved for future program
                participation, instruct CDE to (1) ensure that the sponsor corrects its
                deficiencies, or (2) terminate Sponsor A from the program.

                Agency Response.

                FNS agreed with this recommendation and will work with CDE to determine if
                Sponsor A is seriously deficient in operating the SFSP and follow through with
                the prescribed regulatory process to permanently correct the deficiencies. FNS
                in coordination with CDE will implement the recommendation within 30 days.
                (Estimated completion date: September 30, 2007)

                OIG Position.

                We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27099-34-SF                                                              Page 21
Finding 3                         Deficiencies noted at two other California sponsors.

                                  Sponsors B and C made errors on their claims for reimbursement. Sponsor B
                                  claimed administrative expenses based on an unapproved indirect cost rate and
                                  Sponsor C did not report all income earned. In addition, these sponsors claimed
                                  unsupported operating expenses. These program violations occurred because the
                                  sponsors misunderstood program requirements and made inadvertent errors. As
                                  a result, sponsors B and C were overpaid $37,490.

                                  While the deficiencies discussed below do not constitute serious deficiencies
                                  and are not systemic in nature in our opinion, they do need to be addressed by
                                  the State agency.

                                  Sponsor B

                                  We questioned $12,929 ($12,267 in administrative costs and $662 in operating
                                  costs) paid to Sponsor B on its June and July 2006 claims for reimbursement.
                                  We questioned the $12,267 in administrative costs the sponsor claimed because
                                  it used an unapproved indirect cost rate to calculate the costs. FNS’ financial
                                  management handbook 39 requires that, if indirect cost rates are used, they be
                                  approved, included in the sponsor’s budget, and adequately documented.

                                  Sponsor B indicated on its budget, submitted as part of its program application,
                                  that it would report only direct administrative costs. However, during the audit,
                                  Sponsor B’s accountant told us that it had actually used an indirect cost rate to
                                  determine its administrative costs (the sponsor engaged in activities unrelated to
                                  the SFSP, and some of its administrative costs benefited both the SFSP and the
                                  other activities).

                                  According to the accountant, the indirect cost rate was calculated by
                                  (1) determining the projected amounts of operational and administrative
                                  reimbursement, by multiplying the projected number of meals by the applicable
                                  reimbursement rates; then (2) determining what percentage of the projected
                                  operational reimbursement the projected administrative reimbursement
                                  represented. (To illustrate, if the sponsor expected to receive $10,000 in
                                  operational reimbursement, and $1,500 in administrative reimbursement, the
                                  result would be 15 percent.)




39
     FNS Instruction 796-4, Rev. 4, paragraph X B, dated May 21, 1992.


     USDA/OIG-A/27099-34-SF                                                                               Page 22
                                 We had several concerns about the methods used by the sponsor to determine
                                 and apply the rate:
                                 • The rate was calculated based on estimates of revenue, not actual costs.
                                 • A pool of actual indirect administrative costs was not determined.
                                 • The rate was not applied against a base that represented all of the
                                    organization’s activities that benefited from the indirect costs.
                                 • Application of the rate did not result in an allocation of the organization’s
                                    actual indirect administrative costs to all benefiting activities.

                                 If the sponsor wishes to claim administrative costs, it needs to supply the State
                                 agency with sufficient support for the costs reported, including documentation
                                 supporting the indirect cost rate, if it chooses to use one.

                                 We also questioned $662 in reimbursement for operating expenses paid to
                                 Sponsor B, although in total we questioned $2,075 of the expenses it reported.
                                 This is because the sponsor had been previously reimbursed based on the
                                 “meals-times-rates” amount, a lower amount than its actual operating costs. 40
                                 See exhibit C for details.

                                 The costs we questioned are detailed in exhibit F. They included $1,644 in
                                 double-charged payroll expenses, resulting from the sponsor reporting both the
                                 gross pay and the amount of employee deductions. However, the sponsor also
                                 failed to claim some allowable employer payroll costs (State unemployment
                                 insurance and workers compensation payments). We could not determine the
                                 allowable amount, but if the sponsor is able to provide adequate support to the
                                 State agency, the costs would be allowable.

                                 Sponsor C

                                 Sponsor C failed to report $23,840 in program income on its program year
                                 2006 claims, as required. The sponsor prepared and sold meals to another
                                 sponsor, in addition to the meals it prepared for its own sites. Although the
                                 sponsor included the full cost of the meals it sold in the operating expenses it
                                 reported, it only reported a portion of the income earned. Sponsor C reported
                                 $1,640 in program income, representing the amount it had received, rather than
                                 the $25,480 it earned. Regulations 41 require that program income be reported on
                                 the claim for the period in which it was accrued, not received.

                                 Sponsor C also double-counted three invoices, totaling approximately $721, 42
                                 when calculating the operating expenses it reported on its July 2006 claim for
40
   Sponsors are paid based on the total number of meals served, and total amounts of costs reported, for the year to date, rather than for the claim month
alone. As each claim is processed, the State agency adds amounts from the current claim to amounts reported in prior months, to determine year-to-date
amounts for both the “meals-times-rates” and actual cost calculations. For this reason, we calculated the overpayment based on year-to-date data obtained
from the State agency. This data reflected full-year 2006 data (through September 2006).
41
   7 CFR 225.9 (d), dated January 1, 2006.
42
   Three receipts from Costco for purchases during July 2006.


 USDA/OIG-A/27099-34-SF                                                                                                                     Page 23
                reimbursement. These two errors resulted in an overpayment to the sponsor of
                $24,561. Because the actual expenses reported by the sponsor were lower than
                the amount determined by multiplying the number of meals claimed by rates, the
                sponsor was reimbursed the amount of the actual expenses it reported (see
                exhibit D). Therefore, the full $24,561 should be collected back from the
                sponsor.

Recommendation 9

                Instruct CDE to bill Sponsor B for $662, to collect the overpayment it received
                for operating costs.

                Agency Response.

                FNS agrees with this recommendation and will instruct CDE to bill Sponsor B
                for the overpayment within 30 days. In addition, FNS will instruct CDE to
                provide status reports on the collection efforts.

                OIG Position.

                For acceptance of FNS’ management decision, please provide, within 60 days, a
                copy of CDE’s billing to Sponsor B, along with an estimated date for collection
                of the amount.

Recommendation 10

                Instruct CDE to bill Sponsor B for $12,267, to collect the overpayment it
                received for administrative costs.

                Agency Response.

                FNS agrees with this recommendation and will instruct CDE to bill Sponsor B
                for the overpayment within 30 days. In addition, FNS will instruct CDE to
                provide status reports on the collection efforts.

                OIG Position.

                For acceptance of FNS’ management decision, please provide, within 60 days, a
                copy of CDE’s billing to Sponsor B, along with an estimated date for collection
                of the amount.

Recommendation 11

                Instruct CDE to bill Sponsor C for $24,561, to collect the overpayment it
                received.

USDA/OIG-A/27099-34-SF                                                               Page 24
                Agency Response.

                FNS agrees with this recommendation and will instruct CDE to bill Sponsor C
                for the overpayment within 30 days. In addition, FNS will instruct CDE to
                provide status reports on the collection efforts.

                OIG Position.

                For acceptance of FNS’ management decision, please provide, within 60 days, a
                copy of CDE’s billing to Sponsor C, along with an estimated date for collection
                of the amount.

Recommendation 12

                Instruct CDE to ensure that the deficiencies identified in this report pertaining to
                Sponsors B and C are corrected and to provide these sponsors training in the
                areas in which they were found deficient.

                Agency Response.

                FNS agreed with this recommendation and will instruct CDE to follow up with
                Sponsors B and C to ensure permanent corrective action is implemented and the
                needed training is provided within 60 days. In addition, FNS will instruct CDE
                to confirm Sponsors B and C properly corrected the deficiencies and are
                operating the program according to regulations. (Estimated completion date:
                October 31, 2007)

                OIG Position.

                We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27099-34-SF                                                                    Page 25
 Scope and Methodology

                                  For fiscal year 2005, FNS reported that cash payments totaling $234 million 43
                                  were awarded to program sponsors in 53 States/Territories 44 during this
                                  period. There were 208 participating sponsors in California and Nevada that
                                  were paid $12.3 million ($11.7 million and $0.6 million, respectively) of the
                                  $234 million.

                                  Our review was limited to private nonprofit sponsors. As discussed earlier,
                                  private nonprofit sponsors had been excluded from participating in the
                                  program in 1981 due to concerns that some of the sponsors had mismanaged
                                  the program. We limited our scope to sponsors in OIG’s (and FNS’) Western
                                  Region. (OIG’s Southeast Regional Office concurrently conducted an audit of
                                  sponsors in that region.) We judgmentally selected California and Nevada
                                  based on participation levels of private nonprofit sponsors, concerns noted by
                                  FNS personnel, and logistical considerations. Within these states, we
                                  judgmentally selected four sponsors based on amount of reimbursement
                                  received, concerns noted by State agencies, analysis of prior-years State
                                  agency reviews, and logistical considerations. In fiscal year 2005, the four
                                  sample sponsors were paid $0.7 million, or 25 percent, of the $2.8 million paid
                                  to the 53 private nonprofit sponsors participating in California and Nevada.

                                  We conducted fieldwork at the FNS National Office in Alexandria, Virginia;
                                  FNS’ Western Regional Office in San Francisco, California; State
                                  Departments of Education in California and Nevada; program sponsors and
                                  service sites in Los Angeles and San Diego Counties, California, and Clark
                                  County, Nevada. Audit field work was conducted between May and October
                                  2006.

                                  This audit was performed in accordance with generally accepted government
                                  auditing standards. To accomplish our audit objectives, we performed the
                                  following audit steps and procedures:

                                  •    Reviewed all applicable laws and regulations to gain an understanding of
                                       the SFSP.

                                  •    Interviewed FNS National Office and regional office personnel to solicit
                                       comments or concerns about and/or sponsor participation, to identify
                                       processes for overseeing the SFSP and to identify procedures used for
                                       monitoring State agencies.

43
   This information was based on data reported by FNS as of November 24, 2006. These payments do not include administrative expenses or commodity
costs and may be subject to revision.
44
   This includes the 50 US States plus the District of Columbia, Puerto Rico, and the Virgin Islands.


 USDA/OIG-A/27099-34-SF                                                                                                             Page 26
                 •   Interviewed State agency personnel to determine if any complaints were
                     received or irregularities noted with respect to participating sponsors.

                 •   Examined sponsor applications to determine if the State agency’s process
                     for approving sponsors was sufficient to ensure that sponsors met
                     eligibility requirements.

                 •   Reviewed State agency and sponsor training procedures to determine if
                     program information was adequately disseminated to ensure sufficient
                     understanding of SFSP policies and procedures.

                 •   Evaluated State agency and sponsor review procedures to determine
                     whether adequate oversight was in place to ensure that sponsors and sites
                     were complying with SFSP policies and procedures.

                 •   Analyzed sponsor records, interviewed sponsor personnel, visited service
                     sites, and observed meal services; to determine if claim reimbursements
                     were supported and program requirements were complied with by sponsors
                     and site personnel.




USDA/OIG-A/27099-34-SF                                                              Page 27
Exhibit A – Summary of Monetary Results
                                                                        Exhibit A – Page 1 of 1



FINDING   RECOMMENDATION
                                  DESCRIPTION                 AMOUNT       CATEGORY
NUMBER        NUMBER

                           Sponsor A, advance payment in                Questioned Costs -
   2              6        excess of allowable operating      $13,924   Recovery
                           costs.                                       Recommended

                           Sponsor A, advance payment in                Unsupported Costs -
   2              7        excess of allowable                 $2,221   Recovery
                           administrative costs.                        Recommended

                                                                        Questioned Costs -
                           Sponsor B, unallowable operating
   3              9        costs.
                                                               $662     Recovery
                                                                        Recommended

                                                                        Unsupported Costs -
                           Sponsor B, unsupported
   3             10        administrative costs.
                                                              $12,267   Recovery
                                                                        Recommended

                           Sponsor C, unreported program                Questioned Costs -
   3             11        income and unallowable             $24,561   Recovery
                           operating costs.                             Recommended

TOTAL MONETARY RESULTS                                        $53,635




USDA/OIG-A/27099-34-SF                                                              Page 28
Exhibit A1 – Summary of Monetary Results – Excluding Excess Advance
                                                                                                                       Exhibit A1 – Page 1 of 1


                                          REIMBURSEMENT                                     OIG
                                                                                         QUESTIONED                PERCENTAGE
        SPONSOR                 PER CLAIMS                       PER OIG                   COSTS                   QUESTIONED
              A                     $ 19,006                   $ 10,961                      $ 8,045                       42%
                  45
              B                      126,443                     113,514                       12,929                      10%
              C                        41,533                      16,972                      24,561                      59%
                                                                                                        46
            Total                   $186,982                   $141,447                      $45,535                       24%




  45
     Figures shown above in the reimbursement columns for Sponsor B differ from those in Exhibit C because they reflect amounts for
  June 2006 and July 2006 only.
  46
     This figure differs from the Total Monetary Results of $53,635 reported in exhibit A. Exhibit A includes an $8,100 excess advance
  payment which is still outstanding.


USDA/OIG-A/27099-34-SF                                                                                                                   Page 29
Exhibit B – Summary of Monetary Results – Sponsor A
                                                                                                        Exhibit B – Page 1 of 1


                                               PER CLAIMS             PER AUDIT                DIFFERENCE
        MEALS
         Breakfasts                                  4,256                3,116                         1,140
         Lunches                                     4,291                2,492                         1,799
            Total                                    8,547                5,608                         2,939
        OPERATING COSTS
        A. Actual                                $ 21,842             $ 19,474                      $ 2,368
        B. Meals Times Rate
                                                                                               47
             Breakfasts ($1.47)                  $ 6,256              $ 4,581                     $ 1,676
             Lunches ($2.56)                       10,985                6,380                      4,605
                                                                                               48
             Total                               $ 17,241             $ 10,961                    $ 6,280
        Lesser of A. or B.                       $ 17,241             $ 10,961                      $ 6,280
        ADMINISTRATIVE COSTS
        A. Actual                                $ 2,666              $         0                   $ 2,666
        B. Meals Times Rate
             Breakfasts ($0.1450)                $   617              $   452                       $    165
             Lunches ($0.2675)                     1,148                  667                            481
             Total                               $ 1,765              $ 1,119                       $    646
        Lesser of A. or B.                       $ 1,765              $         0                   $ 1,765
        TOTAL OPERATING AND
        ADMINISTRATIVE COSTS                     $ 19,006             $ 10,961                      $ 8,045

               Total Recommended for Collection:
               Advance operating payment received by Sponsor A                      $ 24,885
               Less: Allowable reimbursement per audit                                                10,961
               Equals: Amount recommended for collection                                            $ 13,924

               Advance administrative payment received by Sponsor A                 $ 2,221
               Less: Allowable reimbursement per audit                                    0
               Equals: Amount recommended for collection                                               2,221
                          Total recommended for collection                                          $ 16,145

               Excess Advance:
               Advance operating payment                                            $ 24,885
               Plus: Advance administrative payment                                    2,221
               Equals: Total advance                                                                $ 27,106
                    Less: Total operating and administrative expenses claimed                         19,006
                    Equals: Excess advance                                                          $ 8,100

  47
       $1.00 difference due to rounding.
  48
       $1.00 difference due to rounding.


USDA/OIG-A/27099-34-SF                                                                                              Page 30
Exhibit C – Summary of Monetary Results – Sponsor B
                                                                                                                          Exhibit C – Page 1 of 1

                                                         PER CLAIMS                   PER AUDIT 49                 DIFFERENCE
       MEALS
         Breakfasts                                             3,283                        3,289                           <6>
         Lunches                                               46,281                       46,222                            59
         Suppers                                                7,614                        7,614                             0
         Snacks                                               432,207                      432,207                             0
           Total                                              489,385                    489,332                              53
       OPERATING COSTS
       A. Actual                                          $398,038                     $395,963                       $ 2,075
       B. Meals Times Rate
            Breakfasts ($1.47)                            $ 4,826                      $ 4,835                     <$         9>
            Lunches ($2.56)                                118,479                      118,328                             151
            Suppers ($2.56)                                 19,492                       19,492                               0
            Snacks 50                                      253,828                      253,828                               0
                Total                                     $396,625                     $396,483                       $     142
       Lesser of A. or B.                                 $396,625                     $395,963                       $     662
       ADMINISTRATIVE COSTS
       A. Actual                                          $ 43,667                   $ 31,400 51                      $ 12,267
       B. Meals Times Rate
              Breakfasts ($0.1450)                        $    476                     $    477                    <$          1>
              Lunches ($0.2675)                             12,380                       12,364                               16
              Suppers ($0.2675)                              2,037                        2,037                                0
              Snacks 52                                     31,041                       31,041                                0
                                                                                    53                           54
                Total                                     $ 45,934                     $ 45,920                       $       15
       Lesser of A. or B.                                 $ 43,667                     $ 31,400                       $ 12,267
       TOTAL OPERATING AND
       ADMINISTRATIVE COSTS                               $440,292                     $427,363                       $ 12,929
       Note: The sponsor operated the California snack pilot program when the SFSP was not in effect. The data shown above
       includes the results of both programs for the full year. Because sponsors are reimbursed on the lower of (1) actual costs
       or (2) meals-times-rates (on a cumulative annual basis), it is necessary to show data for the entire year.

  49
      We noted minor discrepancies between the numbers of meals reported on the claims and supporting documentation. These did not
  impact the amounts of costs we ultimately questioned.
  50
     The operating cost reimbursement rate for the last three months of 2005 was $.58 per snack. The rate for the first nine months of
  2006 was $.59 per snack.
  51
     The amount per audit ($31,400) is the actual administrative costs claimed for fiscal year 2006 ($43,667) less the questioned actual
  administrative costs claimed for June and July ($12,267).
  52
     The administrative cost reimbursement rate for the last three months of 2005 was $.0700 per snack. The rate for the first nine
  months of 2006 was $.0725 per snack.
  53
     $1.00 difference due to rounding.
  54
     $1.00 difference due to rounding.


USDA/OIG-A/27099-34-SF                                                                                                                     Page 31
Exhibit D – Summary of Monetary Results – Sponsor C
                                                          Exhibit D – Page 1 of 1

                            PER CLAIMS   PER AUDIT    DIFFERENCE
   MEALS
    Lunches                     15,190       15,190           0
    Snacks                      17,449       17.449           0
      Total                     32,639       32,639           0
   OPERATING COSTS
   A. Actual                $ 37,141     $ 12,580     $ 24,561
   B. Meals Times Rate
        Lunches ($2.56)     $ 38,886     $ 38,886     $       0
        Snacks (0.59)         10,295       10,295             0
            Total           $ 49,181     $ 49,181     $       0
   Lesser of A. or B.       $ 37,141     $ 12,580     $ 24,561
   ADMINISTRATIVE COSTS
   A. Actual                $    4,392   $    4,392   $       0
   B. Meals Times Rate
        Lunches ($0.0725)   $    4,063   $    4,063   $       0
        Snacks (0.2675)          1,265        1,265           0
            Total           $    5,328   $    5,328   $       0
   Lesser of A. or B.       $    4,392   $    4,392   $       0
   TOTAL OPERATING AND
   ADMINISTRATIVE COSTS     $ 41,533     $ 16,972     $ 24,561




USDA/OIG-A/27099-34-SF                                                Page 32
Exhibit E – Schedule of Questioned Operating Costs – Sponsor A
                                                                                                   Exhibit E– Page 1 of 1


        ITEM QUESTIONED                         BASIS FOR QUESTIONING ITEM                            AMOUNT
    Ice cream                       Not shown on meal production records.                            $ 600.00
    Punch mix powder                This is not an allowable meal component.                             189.06
    Various food items, including
    honey, jello, coffee creamer,   Not allowable as these items were not listed on the meal
                                                                                                         172.12
    raisins, water, and a single    production records and/or not appropriate for program.
    cookie
                                    Not necessary for any of the meals items served per meal
    Plastic knives and forks                                                                              31.32
                                    production records.
                                    Not necessary for any of the meal items served per meal
    Foam plates                     production records (except possibly pizza, but most plates           198.58
                                    purchased appeared to be inappropriate 3-compartment type).
                                    Correction of math errors on worksheets supporting these
    Food labor costs                                                                                     255.00
                                    costs.
    Copier toner cartridge, pens,   Probably allowable as administrative costs, but not as
                                                                                                         722.27
    compressor repair               operating cost, and allocated among all benefiting programs.
    Toilet seat covers              No apparent relation to food program.                                 24.89
                                    Probably allowable as administrative costs, but not as
    Postage to Sacramento                                                                                 23.47
                                    operating cost.
                                    Not allowable, but may claim mileage charges, if properly
    Gasoline purchases                                                                                   151.15
                                    documented. Two of the charges claimed were for 5/06.
                  Total                                                                              $2,367.86




USDA/OIG-A/27099-34-SF                                                                                        Page 33
Exhibit F – Schedule of Questioned Operating Costs – Sponsor B
                                                                              Exhibit F – Page 1 of 1


       ITEM QUESTIONED          BASIS FOR QUESTIONING ITEM                    AMOUNT

                         Sponsor understated costs incurred from one food
          Food                                                                 <$10.00>
                         vendor.

                         Fuel charges were not properly supported with
          Fuel                                                                  136.97
                         documentation of mileage driven for the SFSP.

                         Sponsor claimed reimbursement for certain costs
          Labor          (tax withholding and disability payments) that are    1,643.71
                         the responsibility of its employees.

                         Sponsor did not maintain documentation to support
          Maintenance                                                           175.00
                         this charge.

                         Supporting documentation indicated actual rent
          Rent                                                                    85.00
                         was less than the amount claimed.

                         Sponsor did not maintain documentation to support
          Fed Ex                                                                  15.34
                         this charge.

                         Sponsor did not maintain documentation to support
          Card Upgrade                                                            29.17
                         this charge.

                 Total                                                        $2,075.19




USDA/OIG-A/27099-34-SF                                                                    Page 34
Exhibit G – Schedule of Questioned Meals – Sponsor A
                                                                                           Exhibit G – Page 1 of 2

As discussed in the report, we questioned some meals for more than one reason. For example, for the
August 4 lunch, we questioned all of the 132 meals claimed because the sponsor was unable to support the
purchase of claimed meal components with receipts (code G). We also questioned 88 lunches on that date
on the basis that the sponsor had claimed meals in excess of the number of enrolled children (code B).
However, we are recommending disallowance of only 132 lunches for the day because the 88 lunches were
part of the 132 already disallowed. This results in the total number of questioned meals in the report details
exceeding the total number of meals we are recommending be disallowed. The following schedule is
provided to facilitate the reconciliation of report numbers. The total of the column entitled “Questioned
Meals (Excludes Duplicates)” equals the total number of meals we are recommending be disallowed. The
“Questioned Meals (Includes Duplicates)” column counts without regard to duplications (i.e., a meal
questioned for two reasons would be counted twice) and is provided to reconcile to numbers cited in the
report detail sections.

                                                                         Questioned           Questioned
                                                                           Meals                 Meals
 Reason                                                                  (Excludes             (Includes
  Code                          Explanation                              Duplicates)          Duplicates)
           Meals were claimed on days when the service site was
    A      closed (207 meals claimed after session ended and 261             468                  468
           meals claimed on July 4th).
           Second session meals were claimed at higher first
    B                                                                       1,569                1,744
           session enrollment amounts.
           Meals were served during a field trip that was not
    C                                                                        35                    35
           approved by CDE.
           Meals claimed for meal service that OIG observed did
    D                                                                        35                    35
           not include a required food component (fruit).
           Meals claimed for meal service that OIG observed did
    E                                                                        38                    38
           not include a required food component (milk).
           Meals did not include a sufficient quantity of cheese
    F                                                                                             174
           and/or yogurt.
           Meals components were not supported by purchase
    G                                                                        790                  790
           receipts (peanut butter, eggs).
    H      Meals were served outside of approved meal times.                                       73
    I      Meals were claimed in excess of enrollment.                        1                     5
    J      Meal counts in excess of meals served.                                                  14
           Meals claimed in excess of number recorded on meal
    K                                                                         3                     3
           count forms.
                               Totals                                       2,939                3,379

  See chart on following page for the numbers of meals questioned by date.



USDA/OIG-A/27099-34-SF                                                                                  Page 35
 Exhibit G – Schedule of Questioned Meals – Sponsor A
                                                                                                                         Exhibit G – Page 2 of 2

                            Questioned Meals                                         Duplicate Questioned Meals
               Breakfast            Lunch                                Breakfast                         Lunch                            Grand
  Date        Meals Code        Meals Code         Total        Meals Code      Meals Code       Meals Code      Meals Code       Total     Total
  6/26
  6/27
  6/28
  6/29
  6/30                           131     G          131
   7/3                             1     I            1
   7/4          131     A        130     A          261
   7/5
   7/6
   7/7                           134     G          134                                             2     I                        2
  7/10
  7/11
  7/12
  7/13
  7/14                           132     G          132
  7/17
  7/18
  7/19
  7/20
  7/21                           130     G          130
  7/24           88     B         88     B          176                                           87     F*                       87
  7/25           89     B         88     B          177            1     I                                                         1
  7/26           87     B         88     B          175
  7/27           88     B         88     B          176
  7/28           86     B        131     G          217                                           87      B                       87
  7/31           89     B         88     B          177            1     I                        87      F                       88
   8/1           88     B         87     B          175
   8/2           84     B         87     B          171
   8/3           85     B         87     B          172
   8/4           84     B        132     G          216                                           88      B                       88
   8/7
   8/8           35     D                             35          35     H           3   J                                        38
   8/9                            38     E            38                                          38      H        11     J       49
  8/10                            35     C            35
  8/11
  8/14
  8/15
  8/16           35     A         34     A            69
  8/17           33     A         36     A            69
  8/18           34     A         35     A            69
    **          <1>     K          4     K             3
              1,135            1,804                               37                3            389                11
  Totals                                            2,939                                                                        440          3,379
* We were unable to identify the specific days on which the shortages occurred, and have judgmentally applied the shortages equally to weeks 5 and 6.
We determined that this was the most reasonable approach based on our conclusion that the sponsor served fewer meals than claimed during those weeks
(see code B).
** The sponsor’s claims included one less breakfast and four more lunches than had been recorded on the meal count forms.



 USDA/OIG-A/27099-34-SF                                                                                                                   Page 36
Exhibit H – Agency’s Response
                                Exhibit H – Page 1 of 4




USDA/OIG-A/27099-34-SF                      Page 37
Exhibit H – Agency’s Response
                                Exhibit H – Page 2 of 4




USDA/OIG-A/27099-34-SF                      Page 38
Exhibit H – Agency’s Response
                                Exhibit H – Page 3 of 4




USDA/OIG-A/27099-34-SF                      Page 39
Exhibit H – Agency’s Response
                                Exhibit H – Page 4 of 4




USDA/OIG-A/27099-34-SF                      Page 40
Informational copies of this report have been distributed to:

Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division               (1)
FNS Liaison Officer                                             (3)
